<html>
<title> - OPPORTUNITITES TO IMPROVE THE ORGANIZATIONAL RESPONSE OF THE FEDERAL AGENCIES IN THE MANAGEMENT OF WILDLAND FIRES</title>
<body><pre>[Senate Hearing 114-263]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-263
 
 OPPORTUNITITES TO IMPROVE THE ORGANIZATIONAL RESPONSE OF THE FEDERAL 
              AGENCIES IN THE MANAGEMENT OF WILDLAND FIRES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 OPPORTUNITITES TO IMPROVE THE ORGANIZATIONAL RESPONSE OF THE FEDERAL 
              AGENCIES IN THE MANAGEMENT OF WILDLAND FIRES

                               __________

                            AUGUST 27, 2015
                            
                            
                            
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


                            


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
                               _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
98-908 PDF                 WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                
               
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Barrasso, Hon. John, Chairman, and a U.S. Senator from Wyoming...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Berndt, Gary, County Commissioner, Kittitas County, Washington...     7
Medler, Dr. Michael, Spokesman for the Firefighters United for 
  Safety, Ethics, and Ecology....................................    15
Zimmerman, Dr. Thomas, President, International Association of 
  Wildland Fire..................................................    27
Goulette, Nick, Project Director, Fire Adapted Communities 
  Learning Network, and Executive Director, Watershed Research & 
  Training Center................................................    39
Goldmark, Dr. Peter, Commissioner of Public Lands, Washington 
  State Department of Natural Resources..........................    46

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Bannon, Kevin
    Letter for the Record........................................    66
Barrasso, Hon. John
    Opening Statement............................................     1
Berndt, Gary
    Opening Statement............................................     7
    Written Testimony............................................    10
Cantwell, Hon. Maria
    Opening Statement............................................     2
Goldmark, Dr. Peter
    Opening Statement............................................    46
    Written Testimony............................................    48
Goulette, Nick
    Opening Statement............................................    39
    Written Testimony............................................    41
Medler, Dr. Michael
    Opening Statement............................................    15
    Written Testimony............................................    18
Outdoor Alliance
    Letter for the Record........................................    68
U.S. Department of Agriculture and U.S. Department of the 
  Interior
    Letter Addressed to Chairman Lisa Murkowski..................    70
U.S. Department of Agriculture and U.S. Department of the 
  Interior
    Letter Addressed to Ranking Member Maria Cantwell............    72
Zimmerman, Dr. Thomas
    Opening Statement............................................    27
    Written Testimony............................................    29


  OPPORTUNITIES TO IMPROVE THE ORGANIZATIONAL RESPONSE OF THE FEDERAL 
              AGENCIES IN THE MANAGEMENT OF WILDLAND FIRES

                              ----------                              


                       THURSDAY, AUGUST 27, 2015

                                        U.S. Senate
                  Committee on Energy and Natural Resources
                                                        Seattle, WA
    The Committee met, pursuant to notice, at 11:30 a.m. PDT at 
the Pigott Auditorium of Seattle University (Su Campus Walk, 
Seattle, Washington), Hon. John Barrasso, presiding.

  OPENING STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM 
                            WYOMING

    Senator Barrasso. We will call this meeting to order. 
Welcome everyone.
    First, thanks to the wonderful hospitality by our friends 
at Seattle University for allowing us to be here today. This is 
an incredible Jesuit institution founded in 1891 with a 
remarkable reputation.
    My daughter is at Loyola Marymount University in L.A., 
another Jesuit institution. If you go into the chapel, they 
have these wonderful stained-glass windows representing each of 
the Jesuit institutions from around the country, and they have 
a magnificent one for Seattle University.
    I am John Barrasso, a Republican Senator from Wyoming. I am 
joined by Senator Maria Cantwell from Washington State, who you 
all know and I know appreciate the fine job that she is doing 
in this area.
    I am calling this hearing today on wild land fire to order, 
and I am, as I do so, mindful of the recent tragic loss of life 
and property right here in Washington State.
    I want to acknowledge the many sacrifices that were made by 
firefighters and their families to protect, to serve and to 
keep our communities safe. Sadly, we all too often have seen 
the ultimate sacrifice made by brave men and women, including 
the recent deaths of Thomas Zbyszewski, Andrew Zajac and 
Richard Wheeler. I have read the stories, looked at each of 
their pictures and, you know, you think about this.
    There is Thomas, 20 years old. His parents, 20 years, have 
been firefighters. Andrew, 26, played college football at Case 
Western, loved the outdoors and had a degree in Biology. 
Richard is a fourth generation firefighter in his family.
    So the people of Wyoming share in the grief and the loss 
and send their prayers and their best wishes.
    Senator Cantwell, just please know that in Wyoming our 
thoughts and prayers are with all the people of Washington 
State and the families of these firefighters at this time. I 
would like to ask you to proceed with your opening statement.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well thank you, Senator Barrasso.
    I want to thank you for flying here from Wyoming and being 
part of this field hearing, an official Committee on the Energy 
and Natural Resources hearing. I want to note that you are the 
Chair of the Public Lands Subcommittee and are very familiar 
with these issues. I so appreciate you taking the time to be 
here and for your remarks right now, particularly to the 
families of the lost firefighters.
    We are here today, we thought we would be here many months 
ago, having a discussion about last year's fire season and 
specific response to the Carlton Complex and the many fires 
that we have seen across America that my colleagues, Senator 
Murkowski and Senator Barrasso, myself and Senator Wyden, had 
been working on as far as legislation. Now this fire season 
came upon us, and we saw 7.7 million acres of U.S. land burnt, 
which is double last year's fire season.
    Before I get into my remarks, I too want to say something 
about the 3,000 men and women throughout our state who have 
been fighting these fires tirelessly, working around the clock, 
giving it everything that they can. Specifically our prayers go 
out to the families of Andrew Zajac, Richard Wheeler and Tom 
Zbyszewski. They made the ultimate sacrifice, and they lost 
their lives trying to protect the very communities they lived 
in. Our hearts go out to these families and to their friends 
and to their communities.
    Our hearts and prayers are still with those firefighters 
who are recovering. These men and women are doing everything 
that they can to help make us safe. We wish them speedy 
recovery.
    Unfortunately, it is becoming all too real for the people 
of Washington that this year's fire season is breaking records. 
This is Day 77 of continuous fire operations, a record by more 
than 15 days, and we have many more days yet to come.
    As of yesterday the perimeters of our wildfires in the 
Pacific Northwest totaled 1,658 miles, essentially a distance 
stretching from Seattle to Milwaukee, all in need of fire 
lines. In total, more than 1,100 square miles of Washington 
State have burned this year, an area larger than the entire 
State of Rhode Island. The Okanogan Complex has now surpassed 
last year's Carlton Complex as the single largest wildfire in 
state history. Clearly this is the worst fire season in our 
state's history.
    Despite all that people can be assured that our 
firefighters, local officials, some of who are with us today, 
at the State and Federal and even international level, are 
answering this call. Their diligent work has managed to save 
thousands of houses threatened across the state. The President 
did grant Federal emergency aid and operations are now being 
operated in mobilization centers, even out of Fairchild Air 
Force Base. At the same time we know it is only August, and we 
could see fires burning for the next month or two.
    We know that this seems like it has become the new normal. 
In fact as I was traveling the state I ran into a friend in a 
diner in Wilbur who told me about how she and her husband were 
planning their evacuation, only to realize when they were going 
through their various steps that they had not unpacked a lot of 
things from last year's evacuation. So is this the new normal?
    We are definitely going to hear from our witnesses today in 
their testimony about what we face, what these new challenges 
are and how we deploy new strategies to best help our 
communities.
    I have been to Central and Eastern Washington, to many 
parts of our state, talking to individuals, seeing our 
response. As I said, our legislation, which is really in 
response to last year's fire season, is about upgrading our 
national fire management strategy and leveraging the hard 
learned lessons and issues that we have learned about in the 
last year.
    We have heard the struggles of communities and first 
responders trying to maintain challenging communications 
infrastructure last year in the Carlton Complex fire when much 
of the broadband communication throughout Twisp had burned up. 
How do these individuals communicate to the many towns and 
individuals through that process?
    We have heard from our firefighters and experts on the 
front lines about the challenges of new fire behavior, and I am 
sure our witnesses are going to talk about that today.
    We have also had a number of roundtables, and we heard from 
people about the advanced fire season and what we can do in 
preparation. Several communities like Yakima County and 
Kittitas County are implementing community wildfire plans, and 
I know the Commissioner is here today to talk about some of 
that.
    These plans work because people come together ahead of 
time. They determine the risks the community faces from wild 
land fires, and they reduce those risks.
    I also heard repeatedly that when the time is right and the 
fire season is behind us, our communities are looking for 
Federal leadership on hazardous fuel reduction treatments and 
other preventative measures that would help us better manage 
this landscape in the future.
    So our focus right now in Washington State should be first 
and foremost to make sure that we are helping to protect our 
communities, get the current situation under control, and to 
continue to provide safety. When the time is right my 
colleagues and I want to work with the others on a bipartisan 
basis to take the ideas that we learned, that we have put into 
legislation and get that legislation passed before next fire 
season so that we are better prepared next year.
    Our key steps are bolstering community preparedness, 
prevention and resilience, updating our emergency response 
capabilities so communities can better communicate and taking 
action to reduce hazardous fuels so that we are managing our 
risks.
    One issue I just want to highlight, because there are many 
of the eight recommendations that we have in a White Paper, is 
the need to solve what is called the fire borrowing problem. We 
provide adequate funding for fighting fires at the beginning of 
the year, but we need to make sure that money is not taken from 
those accounts and spent, literally, on the fires themselves.
    According to the Forest Service every dollar spent on 
prevention saves a $1.70 on fighting fires. Since 2002 we took 
a total of $13.2 billion and that money was borrowed from other 
Forest Service programs to cover emergency firefighting costs. 
For the same amount of money we could have a 50 percent 
increase in the number of air tankers. We could have 2,000 more 
firefighters. We could have treated hazardous fuels on more 
than a million acres of the Wildland Urban Interface where many 
of the homes are at risk. And according to the Forest Service 
these actions could save $420,000,000 in firefighting costs 
each year. In other words, they could save taxpayers a total of 
$5.4 billion.
    So we need a more strategic approach to investing in 
prevention. It will help pay for itself in the long run.
    Along those lines our legislation does encourage Federal 
and State agencies to do landscape treatment when fire risks 
are low and enhance mapping so we can reduce risk and upgrade 
our communications and technology so our firefighters have the 
best and most effective tools when fighting the fires. Our 
legislation would also ask FEMA to work to make sure that we 
are addressing the needs of our rural communities and that 
density requirements do not preclude them from getting 
emergency assistance.
    I guarantee you that both my colleague and I, who come from 
very beautiful states, understand that our rural, recreational 
economies are key values to our state. We want to see them 
protected.
    So we have been working on this bipartisan effort. I am 
sure that this fire season and today's hearing will add 
additional thought to our efforts. But let me repeat again, it 
is our hope that we will take these lessons, because the need 
is urgent, to make these changes and get better prepared for 
next fire season.
    Again I thank the witnesses for being here today, and I 
look forward to their testimony.
    Senator Barrasso. Well, thank you very much, Senator 
Cantwell. I know people all around the country are reaching out 
to assist in any way that they can. Wyoming has deployed two 
UH60 helicopters, their crews, and a maintenance crew to assist 
with aerial firefighting here in Washington.
    We are seeing firsthand how extremely detrimental wild land 
fires are to families and communities, as you say, all across 
the West.
    In addition to the loss of life and property, we have seen 
a loss of wildlife and a loss of wildlife habitat. We have seen 
increased soil erosion. We have seen large carbon and smoke 
release. We have seen the loss of jobs, the loss of businesses, 
and degradation of watersheds.
    We must recognize there are many contributing factors for 
why wildfire size and intensity and the costs of fighting these 
fires are increasing. Increasing fire cost and severity are the 
result of a number of things including excessive fuel loads, 
overcrowding and drought, decades of fire suppression, 
declining forest health due to insects and disease, the spread 
of invasive species such as cheat grass and an ever expanding 
Wildland Urban Interface. These conditions underscore the 
importance of preparing for and mitigating their impacts.
    Congress must act. Act for the safety of our firefighters 
and communities and also for the health of our forests. 
Congressional action must include a combination of actions. 
Congress needs to end the practice, as you say, of fire 
borrowing and we must do it in a financially responsible way. 
There is bipartisan support for that.
    The Senate Interior Appropriations Committee bill provides 
one fiscally responsible approach that ends fire borrowing. We 
can end fire borrowing by budgeting for 100 percent of the ten-
year average for fire suppression as well as providing a 
limited emergency reserve or contingency fund for firefighting 
in those areas where the fires are above average. This will 
guarantee firefighters have the tools and resources they need 
to safely and effectively fight fires.
    I want to commend Lisa Murkowski, the Senator from Alaska 
and Chairman of the Committee, for advancing a reasonable 
solution on these difficult issues. I know, Senator Cantwell, 
you and Senator Murkowski and I are going to continue to work 
closely together on this very topic.
    Congress can not simply stop with budgetary measures, 
however, and providing emergency funding. That is not going to 
solve all the problems. They can not do that and say the 
problem is solved.
    Congress needs to take additional steps to encourage 
greater community preparedness, especially in Wildland Urban 
Interface. They need to take steps to allow for adoption of 
proven technologies, to prioritize funding for vital active 
management treatment activities to protect lives and property, 
to provide policy reforms to combat excessive fuel loads and 
extensive time lags for projects and also to ensure that the 
Forest Service is spending the funds in the best and most 
efficient manner. Wildfires are not simply a fire budgeting or 
money problem. They are a landscape management problem as well.
    Long term I see no higher priority for the U.S. Forest 
Service than treating our forests to make them healthy again. 
Healthy, resilient forests are fire resistant forests. We know 
in many forest areas what agencies and communities can do to 
reduce the risk and prepare for the fires we know are coming, 
so today we are going to hear testimony on what communities 
need in order to reduce the threat of wildfire.
    As a doctor I will tell you I appreciate the adage that 
says, ``An ounce of prevention is worth a pound of cure.'' To 
reduce the risk to life and property posed by wildfires and to 
decrease the cost and severity of fires, we need to get more 
work done in our National Forests.
    According to the U.S. Forest Service between 62 and 82 
million acres, these are their numbers, between 62 and 82 
million acres, right now, today, are in need of treatment and 
at risk of catastrophic wildfire. That is over 40 percent of 
the entire National Forest system, and the number is growing.
    Congress needs to help the Forest Service manage the land 
to address the unhealthy state of our nation's forests. We 
simply cannot allow the status quo to continue.
    It is now a necessity to conduct more prescribed fires, 
perform more fuel reduction treatments, and undertake more 
vegetation management projects to thin our unnaturally, 
overcrowded forests. We must get treatments implemented at the 
same pace and scale the fire and other disturbances are 
occurring. We need to expedite the coordination and approval of 
these management activities which reduce our fire threat.
    Treating our forests and preparing our communities is the 
best medicine that we have to reduce fire risk bringing down 
the costs of fighting fires over time and continue to provide 
recreation, clean water and quality habitat for wildlife. It is 
also a sustainable way to provide the jobs and the economic 
activity our rural and forested communities desperately need. 
We see that certainly in Wyoming and certainly here in 
Washington State.
    We continue to see how fires impact jobs and economic 
activity in the same communities. I have introduced 
legislation, the National Forest Ecosystem Improvement Act, to 
make treating our forests the priority it needs to be. The bill 
includes innovative ideas like arbitration to get the Forest 
Service out of the courtroom and back into the woods treating 
our forests.
    Senator Cantwell, you are working on your White Paper, and 
you have a fire bill that you are planning to introduce soon. I 
know it is going to address some of these things, not others. 
But these items are still going to be addressed under your 
leadership and the leadership of Senator Murkowski. I know that 
you appreciate how we must be actively managing our forests. It 
is an obvious part of the equation.
    As with fire policy, I know the Committee is going to work 
together in a bipartisan way to advance legislation with ideas 
for getting the Forest Service back to treating our forests so 
we can restore more acres and prevent additional loss of life 
and property.
    In addition to budgeting and treatment activities, cost 
containment and operational factors are areas we need to 
closely consider. The cost of fires continues to go in only one 
direction, and that is up. While the number of fires, it is 
interesting, and the number of acres burned varies from year to 
year, the costs continue to go up.
    I think Dr. Medler's organization, you have done a report 
on that very fact, and last year highlighted the problem with 
that trend. I am sure you are going to talk about it.
    The Forest Service spent $200 million more on suppression 
than it had spent on an average over the last 10 years, yet, 
that is despite the fact that there are less than half the 
number of fires and less than half the number of acres burned 
last year. But the costs continued to go up.
    So I think Congress needs to provide greater clarity and 
direction for the Forest Service. Operational factors 
associated with wildfire management such as objective 
strategies and tactics, they all have significant efficiency 
and cost implications. We need to consider a paradigm shift 
from one that is focused primarily on fire suppression to one 
that also focuses on fire preparedness and landscape 
management's best practices.
    So it is my goal to work with you, Senator Cantwell, as 
well as Chairman Murkowski and other members of the Committee 
to incorporate what we learn here today to develop a Federal 
wildfire policy that responsibly funds wildfire suppression 
needs, that ends the unsustainable practice of fire borrowing, 
that improves operational efficiencies and firefighting safety, 
that helps get our communities to be fire wise and makes the 
necessary investments in a full array of fuel treatments.
    Now it is time to hear from these wonderful witnesses who 
have been gathered today.
    We are going to start with Mr. Gary Berndt, who is the 
County Commissioner from Kittitas County in Washington State. 
Then we have Dr. Michael Medler, the spokesman for the 
Firefighters United for Safety, Ethics and Ecology. We have Mr. 
Tom Zimmerman, President of the Board of Directors of the 
International Association of Wildland Fire. We have Mr. Nick 
Goulette, the Executive Director of the Fire-Adapted 
Communities Learning Network, and Dr. Peter Goldmark, 
Commissioner, Washington State Department of Public Lands.
    Senator Cantwell. If I could just before...
    Senator Barrasso. Yes, please.
    Senator Cantwell. I meant to thank Senator Murkowski, first 
of all, for allowing us to have a field hearing here in 
Seattle. I know she wanted to be here, but obviously Alaska has 
had their own firefighting challenges this season. We are 
working with her on this legislation, and so much appreciate 
her attention to this. We wish she could have been here today, 
but we certainly understand.
    And as I said to Senator Barrasso, who is the Chair of the 
Public Lands Committee, certainly we are all working together 
on this. So, thank you.
    Senator Barrasso. No problem, thank you, Senator Cantwell.
    As always, your full testimony will be made part of the 
official hearing record. We have received it from all of you 
and we have reviewed it, so please try to keep your statements 
to 5 minutes so that we may have time for questions. I look 
forward to hearing the testimony beginning with Commissioner 
Berndt.
    Mr. Berndt, please begin.

STATEMENT OF GARY BERNDT, COUNTY COMMISSIONER, KITTITAS COUNTY, 
                           WASHINGTON

    Mr. Berndt. Good morning, Chairman Barrasso and Ranking 
Member Cantwell, distinguished guests. I thank you for the 
opportunity to address this Committee today, and I am very 
appreciative of your concerns for local communities that are 
impacted more and more by huge fires and to develop the vision 
for implementing a long term solution.
    I'm currently a County Commissioner in Kittitas County 
which lies on the dry side of the Cascades from the Cascades to 
the Columbia, but I also worked for the Department of Natural 
Resources, a state agency, for my career and as a Fire Manager 
for much of Eastern Washington State and private lands. I was 
also an Interagency Incident Commander on a team that traveled 
across the West for over 15 years. I've also been involved in 
training locally and nationally on incident management.
    Our county is basically 75 percent publicly owned, half of 
that would be in U.S. Forest Service lands. In Kittitas County 
the private investor lands have been sold off. Significantly 
those lands are now in the hands of developers. They are 
intermingled lands with Federal and State lands and develop and 
destined for a residential development; therefore, the single 
largest threat to our county is catastrophic fire which would 
be followed by catastrophic flood.
    I would like to share some of the local efforts that our 
county has undertaken motivated by threat in the beginning, but 
recent fires have really solidified what we do.
    We adopted the Community Wildfire Protection Planning 
Process and have accomplished seven fire-wise communities; 
however, there are preexisting developments from many years ago 
that are intermingled. They have substandard roads, substandard 
water systems and covenants often that will preclude removing 
vegetation unless the Homeowners Association approves. Our 
county has adopted a 200 foot setback from the forest lands for 
new development.
    We also adopted the Wildland Urban Interface code in 2006 
and recently updated it. Our WUI, as we call it, has a hazard 
map that broadly categorizes lands into low, medium and high 
risk and each one of those zones has separate requirements for 
construction and defensible space.
    Defensible space, our fire marshal told me last week, is 
the single, biggest accomplishment that happens when a home is 
built in the woods today. And some of the WUI requirements in 
the high zone require basically 250 feet of clearing and 
maintained. The problem is enforcement. We have one fire 
marshal and we have one deputy. It's a one point in time at 
this point because we don't have the ability in a growing 
county to go back and ensure that those spaces are maintained. 
It would be very helpful if we could do that.
    We've also adopted road standards that require dual ingress 
and egress for developments of more than 40 lots, and new roads 
are required to meet standards that allow for emergency 
response to safely enter and exit.
    We utilized our County Conservation District in the fire 
wise program to maintain and do fire wise. They're providing 
protection for nearly 270 properties a year since 2013. One of 
the main projects that they do is sponsor a roving chipper from 
a local fire department that will go on call, and landowners 
have removed their vegetation and they will chip that for you. 
Federal funding is key to this through the FEMA Hazard 
Mitigation. We really appreciate that.
    The next key for us is response, and emergency response 
rapidly, that's done through local fire districts in 
cooperation and coordination with Federal and State agencies. 
Our county is basically 100 percent volunteer. We have almost 
no paid firefighters.
    They donate their time for training. They donate their 
time. They're involved in the community, and I would hope that 
there is some way that Federal and State agencies can support 
them with equipment and the things they need to be those rapid 
responders in their district.
    Information and communication, key. I'm currently the Chair 
of the 911 Committee, and we work to do communication. We've 
actually talked about things like reverse 911, but we haven't 
gotten there.
    I think I'm going to run out of time.
    Kittitas County is a strong supporter of the Yakima Basin 
Integrated Plan which is a watershed plan to provide irrigation 
to the economies of the local communities. We need to deal with 
that. We can't have the Upper Yakima Basin devastated by fire 
and still maintain our economies.
    If I'm out of time----
    Senator Barrasso. Well please, if you could summarize, go 
right ahead.
    Mr. Berndt. OK.
    What I would like to finish with is I believe that the 
status quo cannot be acceptable. We need solutions. There are 
the immediate solutions to support prevention, preparedness, 
response and suppression, but a long term and durable solution 
to make the inevitability of fire on the east slopes are more 
manageable. The fuel buildups and forest ownerships continue to 
accumulate until there's a major fire event that alters the 
landscape. I've told people for years, if we don't manage the 
forest three things can happen: it will get bugs, it will burn 
or it will get bugs and then burn. That's, kind of, how this 
goes.
    Local economies then tend to suffer the loss and then bear 
the costs. We need to deal with the debts and the weakened 
forests in the National Forests somehow. The best thing I can 
think of, early on, is to ask the collaboratives of Tapash and 
North Central Washington to work toward solutions that can 
buffer communities in those lower elevations and increase the 
ability for the WUI and defensible space to be more successful 
on those Federal lands.
    I think that single thing would allow the land owners to go 
on the Federal land and makes some difference because 200 feet 
as a former Incident Commander is often not enough.
    The Nature Conservancy recently purchased 50,000 acres on 
Snoqualmie Pass, and they have said forest management will be 
their key to making a healthy, residual forest. And they should 
have a plan out shortly.
    I appreciate what you've done. I'm asking you, who have 
chose to make a difference, let's see what we can do.
    I thank you for this opportunity, and I offer my 
appreciation for my county and other National Forest Counties 
as you move forward.
    Thank you very much.
    [The prepared statement of Mr. Berndt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Cantwell. Thank you.
    Senator Barrasso. Thank you so much, Commissioner Berndt. I 
think your point about a durable solution is the key one to 
take away from here today.
    Thank you. Thank you so much.
    Dr. Medler, thank you.

STATEMENT OF DR. MICHAEL MEDLER, SPOKESMAN, FIREFIGHTERS UNITED 
                 FOR SAFETY, ETHICS AND ECOLOGY

    Dr. Medler. Well, Senator Barrasso, Senator Cantwell, thank 
you for your work on this. It's an honor to be here.
    I teach at Western Washington University. I'm also a member 
of Firefighters United for Safety, Ethics and Ecology (FUSEE), 
and I also have worked as a firefighter. Now I work with 
students who are studying wildfire and then heading back to the 
fire lines each summer.
    This week as we mourn three more firefighters, my heart 
pours out to their families and friends. But let me put a 
different personal face on this. I have a 19-year old daughter 
named Bodie. She's a tall, collegiate rower. She can lift heavy 
things all day. She likes to sleep in the dirt. In short, she'd 
be a great firefighter. Since she was a kid I suggested she 
worked on fire crews during college. But after the last few 
seasons, as a father, I'm finding it more difficult to 
recommend that to her or to my students.
    To echo others who testified and to put it very bluntly, 
climate change and the last century of fire policies have 
combined to leave our forests explosive while our wildland 
firefighters are trained for back country but increasingly 
expected to protect the communities. Meanwhile, as you said, 
our costs are going up, even in moderate years. We simply can't 
afford to keep using fire policies and practices from the last 
century.
    I'm a geographer. I think spatially. For example, in the 
U.S. beyond just Forest Service lands we have about a billion 
acres of burnable land. The Forest Service estimates that we 
need to reduce the fuel loads on almost half of that, on 400 
million acres, and that's one of those incomprehensible 
numbers, but that's larger than Alaska.
    Right now the Forest Service is treating with fire and 
other mechanical means, about two million acres a year, very 
roughly. Unfortunately that doesn't even approach the rate that 
we're adding new lands to the backlog. Therefore, I would say 
we really need to be treating more like 20 million acres a 
year, so, of that 400 million.
    These sorts of numbers are simply beyond mechanical 
thinning. We can't cut our way out of this. Additionally, much 
of those 400 million acres are in steep, rugged terrain. 
Mechanical thinning in these areas is expensive, has harsh 
ecological consequences and can make fire hazards worse.
    Instead, we need to reestablish fire's ecological role on 
millions of acres a year. Not only would this enhance forest 
health, but also by reducing the use of aircraft and limiting 
direct attack by hand crews, we would both reduce the cost and 
provide for a safer work environment by working with fire in 
many areas, not all, we can also create a mosaic of reduced 
fire hazards that will be safer and cheaper to manage. We're 
already seeing that. In fires this summer Washington 
firefighters are able to use scars from last summer to create 
wide safe areas and to hook in with their lines.
    But as we all know, the problem with actively managing 
these sorts of large fires is that we now have 70,000 
communities at risk for wildland fire and about 200 million 
acres have been defined as part of the WUI that we're 
discussing. But here's what's interesting. That last quarter 
mile, not 200 feet but about the last quarter mile around our 
communities, is where we can really stop fire from burning 
buildings. That's our thing. That's where prescribed fire, 
building codes, the local capability we're talking about here 
can make a real difference.
    But what's surprising is that a quarter mile buffer around 
every named place in the Western United States, I'll include 
Alaska again, adds up to a little less than nine million acres. 
That's a very small area. And I'm including lots of things that 
we wouldn't need to work on there. So that's an area more like 
the size of Maryland than Alaska.
    In this community protection zone this is where we do have 
the resources to make a difference. This is the best place to 
work with local industry to use biomass to offset costs. This 
is also the area to help organize and empower all the local 
communities we're discussing here.
    We need a marshal plan, a response, providing guidance and 
funding for the work that needs to be done both around our 
communities and in the back country. With congressional 
guidance and the stuff you're discussing now we could create 
good local jobs.
    For example, front country mitigation work in the WUI could 
be year round work for professionals. They could also be 
trained in the complicated intersection of urban and wildland 
firefighting which is a very difficult and unique situation. 
Alternatively, other members of the community could specialize 
in back country fire use and fire monitoring. These are the 
sorts of activities that would allow a few dozen professionals 
to manage back country fires that now require, literally, 
thousands of firefighters and millions of dollars.
    Stephen Pyne testified before you several months ago, and 
he argued that some communities need to be hardened and made 
more resilient to better resist and recover from wildland fire 
so that we have the options of doing restoration work at the 
vast scales necessary in the back country. By prioritizing our 
fire mitigation efforts into dense parts of the WUI we can 
facilitate the use of fire on millions of other acres in the 
back country. We would be using back country fire to reduce the 
long term damage to forest health while actually providing a 
more resilient landscape to manage future fires while also 
reducing further expenditures.
    My written testimony includes a bunch of specific 
recommendations from FUSEE, but key among them is that 
ultimately the ethical use of public resources and the 
ecological restoration of fire adapted ecosystems will and can 
improve firefighter safety and serve the citizens while also 
bringing down costs.
    I know better than most that we can't eliminate all the 
danger in this business. We can't stop all the fires, we can't 
protect every home, and we can't make firefighting totally 
safe; however, we owe it to all the people that we put on the 
fire lines to do what we can and to keep them safe while 
managing our landscapes in ways that will allow fire to be the 
natural process it is.
    I really want to be able to keep recommending a career in 
wildland fire to my students and especially my daughters.
    Thank you for your time.
    [The prepared statement of Dr. Medler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Thank you very much, Dr. Medler. You are 
right, it is the volume itself that is massive.
    Thank you.
    Dr. Zimmerman, thanks for being with us.

  STATEMENT OF DR. THOMAS ZIMMERMAN, PRESIDENT, INTERNATIONAL 
                  ASSOCIATION OF WILDLAND FIRE

    Dr. Zimmerman. Thank you.
    Good morning. I'd like to thank both Senators Cantwell and 
Barrasso for the work you're doing and for the opportunity to 
be here today to testify at this hearing. I'm here in the 
capacity of President and Chairman of the Board of the 
International Association of Wildland Fire. During my career, 
my career has spanned over 40 years, I've served in a variety 
of wildland fire management positions for three Federal 
agencies, worked as a natural resource consultant and also 
earned a Ph.D. in forest fire science.
    To talk to you at today's hearing it is perfectly aligned 
with the vision and purpose of the International Association of 
Wildland Fire and very important and relevant to the 
Association. But unfortunately events are unfolding this fire 
season are truly lamentable and tragic and it is with great 
sadness that we proceed through this fire season knowing that 
all the firefighters that started this season will not be with 
us to finish the season. And the heartbreaking loss of life, we 
recently witnessed it, just stirs emotions that are beyond 
description and our thoughts and prayers go out to all the 
families and the friends of our fallen colleagues.
    With that said, we need to realize that the wildland fire 
is probably the single most important factor shaping and 
influencing our vegetation communities today. Managing this is 
something that's going to encounter some of the highest risk, 
highest complexity and potential for the most serious 
consequences of any natural resource program. Things are 
changing, conditions are changing, the environment is changing 
and we are entering into a transformative time which is clearly 
evidenced by the severity and extent of the 2015 fire season.
    There are three areas I'd like to touch on today briefly in 
wildland fire management that are supporting programmatic 
growth and that can be expanded to facilitate organizational 
performance.
    The first would be what I'd call the guided framework for 
wildland fire management. This would consist of that 
information associated with policy, strategic plans and program 
reviews, and that the foundation for this is the Federal 
Wildland Fire Management Policy.
    And this is something that's evolved considerably over the 
last several decades. It's at the point now where the current 
fire policy is adequate. It does not need to change. It 
provides us the most flexible, comprehensive, supportive, 
applicable fire management policy we've ever had. What we need 
to be doing is realizing the full potential within this policy, 
working within all the options it provides for us.
    In terms of national strategic planning, the National 
Cohesive Wildland Fire Management Strategy recently completed 
represents the single best strategic assessment for wildland 
fire. This provides us with a national vision which states the 
vision is to, ``safely and effectively extinguish fire when 
needed, to use fire where allowable and to manage our natural 
resources and as a nation live with fire.'' This is an 
incredibly progressive, comprehensive statement and provides us 
significant opportunities and a wide range of opportunities 
that we can realize if we pursue that. This provides us with a 
great deal of information.
    The second area I wanted to touch on was just risk 
management. This is becoming a very prominent factor in 
wildland fire management programs today. It's mentioned both in 
the Federal fire policy and in cohesive strategy as our program 
should be based on sound risk management.
    This is an area where growth is occurring, but more growth 
and more expansion should occur and risk management should be 
embedded as a core component to fire management. If we utilize 
risk-based decisionmaking and risk-based actions we will reduce 
firefighter exposure, equipment exposure, strengthen our 
response activities and serve the greater good over the long 
term.
    The third area I wanted to talk about was the budget 
processes, and your work has really supported this. We've heard 
that the current budget process that results in fire borrowing 
is undesirable and is having long term, negative impacts to 
under land management program.
    The IAWF would really enthusiastically support your work on 
this and support working across party lines to come up with a 
new process in how this nation budgets for wildfire management. 
They would really support that.
    Every year we continue to see complexity increasing. The 
cost of businesses are increasing for a variety of reasons, and 
we need to be able to support that rather than restrict that.
    We have long term needs to reduce fuels, to reintroduce 
fire into ecosystems, to harden communities, to strengthen our 
response capabilities and in order to do this we need to 
realize the full spectrum of opportunities that are afforded by 
this guiding framework of policy and strategic plans and using 
these lines in a risk management approach and having a 
complementary rather than restrictive budget process.
    We must be proactive with this as we move into the future 
and not reactive. One of the unfortunate things is in our 
nature a short term fix is really unlikely for this and long 
term patience and long term commitment is going to be necessary 
from society to affect the changes.
    So with that, thank you again for the opportunity today, 
and thank you for your work on this.
    [The prepared statement of Dr. Zimmerman follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Barrasso. Thank you so much, Dr. Zimmerman. You are 
absolutely right, proactive not reactive is what we are trying 
to get to today.
    Next we are hearing testimony from Mr. Nick Goulette. Thank 
you very much for being with us today.

  STATEMENT OF NICK GOULETTE, PROJECT DIRECTOR, FIRE ADAPTED 
COMMUNITIES LEARNING NETWORK, AND EXECUTIVE DIRECTOR, WATERSHED 
                   RESEARCH & TRAINING CENTER

    Mr. Goulette. Thanks for the opportunity to be here, and I 
appreciate both of your remarks and the remarks from my fellow 
panelists here.
    I'm the Director of a non-profit organization in Northern 
California called the Watershed Research and Training Center, 
and we work directly on building a fire adapted community in 
Trinity County where I live and work. I also am presenting here 
today in my capacity as the leader of the Fire Adapted 
Communities Learning Network which is a network of community 
leaders from around the country. I work with 17 communities 
from around the country who are innovators and are really 
demonstrating the best practices of the fire adaptation, taking 
ownership of their wildfire risk and taking the full suite of 
actions necessary to minimize losses.
    Commissioner Berndt and Senator Cantwell both highlighted, 
sort of, the full range of options for reducing risk in 
communities fire wise and defensible space, codes and 
ordinances, chipper programs, sort of community-wide fuel 
reduction. Together that requires a community effort. It is not 
just the responsibility of firefighters and the fire adapted 
communities' concept is really built around that premise that 
it takes a community and it requires insurance companies. It 
requires local government, fire departments, local non-profit 
organizations, conservation districts, all working together. 
The community wildfire protection planning process provides 
this organizing place for people to work together. But from 
there it requires collective action.
    I'd like to provide some examples. I think what we're 
talking about here is building community capacity and 
resilience and getting away from this old reliance on fire 
management and suppression. Community capacity, I think, 
there's a great example of what that looks like actually.
    I'm going to provide an example from my home in Trinity 
County in Northern California. We've had over 200,000 acres of 
fire this year, and the steps we've taken to become fire 
adapted have made a real difference. They've involved 
cooperative partnerships, and they've involved a wide range of 
Federal, State and local investments. I think that any 
legislation really needs to deal with those two pieces.
    We built a great Community Wildfire Protection Plan. We 
developed a wide range of data that feeds into fire management 
and supports good decisionmaking, safe decisionmaking. And we 
implemented community-wide fuel reduction projects that helped 
to actually manage the fire, reduce firefighter risk, reduce 
private losses and so all those investments paid off.
    What did it take? It took partnerships, unique 
partnerships, the kind that build a work force, that build jobs 
in communities. We leveraged a wide range of grant programs 
including state fire assistance, rural fire assistance, Secure 
Rural Schools money. Bringing all of that funding together and 
NRCS EQIP funding, working across public and private boundaries 
is what allowed us to actually implement the types of 
treatments that make a difference to protect the community.
    We're seeing exactly that same kind of confluence of 
partnership and funding around the country. What we know is 
that there's not near enough money pouring into that kind of 
work. What I described is really exceptional effort in bringing 
together a lot of resources in very complicated ways.
    Communities are learning how to do it. There's a role for 
the Federal Government, the Forest Service, the Department of 
Interior, NRCS in sort of pulling all that together and making 
it easier for communities to build their capacity to be a real 
asset and be responsive.
    Again, you're seeing communities really take ownership of 
their fire problem where there is that confluence of community 
capacity. The city of Flagstaff, city of Ashland, Santa Fe, New 
Mexico, you have those communities agreeing to actually tax 
themselves to protect their watersheds. That is a huge leap and 
it is Federal investment, basically, over a long period of time 
starting to trigger local investment in community protection.
    I think I want to leave off with a concept that feeds into 
the Federal fire management policy in managing fire on the 
landscape over time because it is going to be an inevitability 
that we need to essentially use fire as a tool.
    As we invest in building fire-adapted communities, as we 
put people to work around our communities, as we build the 
strength of our local fire departments to both invest in 
mitigation and response to wildland fire, we start to build 
that culture of living with fire. I think that culture of 
living with fire is going to be the key to reducing costs and 
risks in wildland fire response.
    It's only when communities are not calling you two to say 
get that fire put out when it's a fire that's not directly 
threatening their community that we're going to start to invest 
less resources in those back country fires and take less risks 
on those back country fires and focus our energy where it's 
going to make that biggest difference.
    So I want to encourage us to, sort of, keep in mind that 
that fire-adapted community investment is the key to both 
getting to resilient landscapes and safe, effective and 
efficient wildland fire response.
    Thanks.
    [The prepared statement of Mr. Goulette follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Barrasso. Thank you so much and for your highlight 
of the areas of community of capacity as well as the resilience 
of each of the communities.
    Finally we will hear from Dr. Peter Goldmark, thanks for 
being with us.

STATEMENT OF DR. PETER GOLDMARK, COMMISSIONER OF PUBLIC LANDS, 
        WASHINGTON STATE DEPARTMENT OF NATURAL RESOURCES

    Dr. Goldmark. Thank you, Senator Barrasso, for joining us 
to see the extreme fire season here in person and for listening 
to these witnesses that have, I think, reasonable input for you 
and Senator Cantwell to consider going forward. I also want to 
thank you for the aerial resources that have come from your 
state. Those were desperately needed and very much appreciated.
    My thanks also to Senator Cantwell for your leadership and 
dedication to improving response and resources for wildfires. 
There is no more crucial time than now to have this discussion, 
right here in the State of Washington in the worst fire season 
to date.
    I'm Peter Goldmark, Commissioner of Public Lands for the 
State of Washington serving my second term as Commissioner. I'm 
trained both as a scientist and a wildland firefighter. Today I 
lead the state's largest on-call fire department of about 1,100 
personnel, who are all heavily engaged in the wildfire effort 
here in the State of Washington as we speak.
    We convene this discussion today against a backdrop of a 
hellish fire storm that has become, as I said, the worst fire 
season in the state's history. As we speak people in 
communities are being evacuated in front of the advancing 
flames. More than 200 structures have been lost and over 
755,000 acres have currently burned, and these fires are 
largely uncontained.
    The human impact of these fires is beyond description. 
Homes have been lost, businesses destroyed, people made 
homeless. The emotional and fiscal impact on not only the 
people but the communities themselves is devastating.
    I just returned from Okanogan County a couple of days ago 
and the pervasive nature of smoke in those communities is 
preventing aerial resources from flying, and overarching, sort 
of, depressing scene of this smoke which indeed is also a huge 
health hazard for humans and other animals as well. It's a 
pretty grim picture over there today.
    Currently we have 12 large wildfires on the landscape with 
more fire weather on the horizon, and our brave firefighting 
professionals are doing heroic work now as we speak. 
Approximately 6,300 firefighters are currently in Washington 
State, and we are very grateful for the support we have 
received from other states, indeed other nations.
    The situation confronts us as leaders with a stark reality. 
The wildland fire environment is unlike anything we have ever 
faced, and we must adapt. Wildfire seasons are longer, climatic 
and weather conditions are more extreme and wildfire behavior 
is explosive and unpredictable. Mega fires are no longer the 
exception, but unfortunately, they are becoming the rule.
    A Federal wildfire funding structure that acknowledges the 
need to treat mega fires as what they are and that is 
disasters, not routine agency business, is an imperative. We 
must fix the structural funding problems that stand in the way 
of our success.
    Our first priority must be to add capacity for fire 
response, hazard reduction and community protection. Disaster 
type funding for the largest, most difficult fires is 
essential. Moreover, we must seize upon this opportunity to 
turn the existing perverse set of budget incentives on its head 
and harness it in the service of life, property and money 
saving prevention and hazard mitigation investments.
    We must turn this around so we make these investments up 
front before the fires come so that we can keep down the cost 
and the horrific damage to our communities. We must end the 
destructive practice of fire borrowing. Forest Service 
initiated a $250 million borrowing order just yesterday. These 
rob from prevention programs and make the problem even worse. 
We must redesign and reinvest in the components of a 
comprehensive wildfire prevention and suppression strategy. We 
must start with forest health treatments and fuel reductions 
for resilient forests for all manner of issues that our forests 
have to deal with. We must provide community protection plans, 
provide for rapid detection and response of wildfire using best 
available technology. We must respond with sufficient force in 
a very short period of time to get this accomplishment done. We 
must preposition all available resources and reduce response 
time. We must improve weather forecasting and the availability 
of real time information on the fire lines with best available 
communications. We need to complete the long stalled 
modernization of the air tanker fleet at capacity for keeping 
fires small. The tanker fleet is instrumental in that regard. 
We must increase our investments in forest health, thinning and 
fuel reduction. Washington State has made a $10 million 
investment in this work over the next 2 years, and we hope the 
Federal Government can match that dedication. This fire season 
is a call for action from leaders in providing protection for 
our citizens and restoring resilient forest landscapes for all 
the many benefits they provide.
    I would end with a message around safety. These efforts are 
all around public safety and around safety for our 
firefighters. We must have the resources available to protect 
the communities, and we must have the technology and sufficient 
numbers to protect our wildland firefighters at the same time.
    Thank you both for your attention to these important issues 
and for being here today.
    [The prepared statement of Dr. Goldmark follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Barrasso. Thank you very much, Dr. Goldmark, and 
thank you for your focus on the end on safety. It is not just 
for firefighters, but for communities as well, safety across 
the board. Thank you.
    We do have a number of questions. I would like to start 
with you, Senator Cantwell.
    Senator Cantwell. Thank you, and I thank all the witnesses 
for your detailed input. Many of you have put a lot of work 
into these efforts before today's hearing. In some cases it is 
your lifelong work, so thank you for that.
    Clearly you have put on the table some new ideas and points 
of direction that we should go in. I would like to start with 
you, Dr. Goldmark, about this issue of fire borrowing because 
you particularly, well Mr. Goulette as well, basically talked 
about reducing risk and reducing costs. What do you see as the 
fundamental challenge in fire borrowing that prevents us from 
reducing risks and reducing costs and how would you implement 
some of those response efforts? I heard in one county,I think 
it was Kittitas County, talk about hasty mobilization. How 
would you increase response and community protection that you 
mentioned?
    Dr. Goldmark. So around the fire borrowing this is a 
crucial issue because if we hear from our Forest Service 
partners when they have to expand their maintenance budgets 
that they would otherwise use on forest health treatments 
around fire suppression, that means that it just prolongs the 
problem for that agency.
    We at DNR look across the fence, so to speak, and we 
understand that the Federal Government and the Forest Service 
are largely hamstrung in their ability to carry out the 
appropriate management activities on those lands in a 
thoughtful, ecological manner to reduce the fuel loading. So 
that inevitably when fires arrive those forests are at 
resilient posture and can keep the fire on the ground where it 
can be actually beneficial and keep it out of the crown of the 
trees.
    It's particularly important in Eastern Washington where the 
fuel loading is high and where the tree spacing is too dense, 
and so fire gets into the crown of the trees. The tree spacing 
needs to be increased and the fuels reduced there. That will 
help the Forest Service meet their obligation, and it will help 
all of the landowners in the vicinity of the forest keep the 
fire danger and the damage done by fires to a minimum.
    Also I agree with Commissioner Berndt that the response 
times that we need across the landscape both at the county, 
State and Federal level need to be brought down considerably. 
As you may know I've made consistent appeals to the State 
legislature for additional capacity in terms of crews and 
equipment so that we can be more present on the landscape, so 
when fires do erupt we can enter into suppression efforts 
within a matter of moments. That's my goal so we can keep our 
fires small.
    Senator Cantwell. So you are saying both stop the fire 
borrowing so that we have more money in advance to actually do 
fuel reduction preparedness, but then, in addition, be ready 
for more rapid response with a different kind of network. Is 
that what you are saying because----
    Dr. Goldmark. Absolutely, you've summarized it perfectly.
    Senator Cantwell. And on that network which we are seeing 
in some counties, we heard some really great testimony here for 
fire wise programs, for chipper distribution, for a variety of 
things.
    But what is this faster response? What is that? What do you 
think? Is that tankers? Is that a network of people with a 
communication system that can just react faster?
    It is very helpful to understand what you are saying about 
keeping the fire on the ground as opposed to in the crown of 
the trees, but what does the network look like for a rapid, 
quicker response?
    Dr. Goldmark. So the network begins with early and rapid 
detection. Whether that's through satellite, over flights, 
drones, whatever, we need to be able to know when a fire starts 
immediately. And then that information needs to flow to the 
network, as you've described it, of local, State, tribal, 
Federal responders, who are closest to the incident and can 
respond, as I said, in a matter of moments so that we can 
really realize the goal that we've all talked about, and that 
is to keep these fires small. By keeping them small, we can 
protect our communities, protect our firefighter's safety and 
protect the habitat and watershed qualities that we all want to 
achieve.
    Senator Cantwell. Is that what you mean by surge capacity 
or is surge capacity the network to get resources more quickly? 
Obviously with these resources across the country we have had 
to bring a lot of resources here to Washington State, and 
sometimes that has taken days. So is that what you are saying?
    Dr. Goldmark. Actually, it's two things.
    The emergency response itself with the goal of getting the 
fire out as rapidly as possible. If that's not achievable, 
shortening the time of the search response would also be 
helpful to keep the fire from growing over large, the way they 
are in the Okanogan Complex or in the Northstar Fire today. We 
need to be able to get additional resources rapidly, if needed.
    Senator Cantwell. All of the witnesses mentioned these 
community preparedness plans. In some cases, I think, we are 
talking about everything from building codes to boundaries to 
communications about best practices. I have heard this is hard 
to implement without some help or at least without some focus.
    Mr. Goulette, what you have done in California, and 
Commissioner Berndt, what you have done in Kittitas County, to 
get more communities prepared for next season?
    Mr. Goulette. Yes, I think increasing the funding 
availability for community wildfire protection planning, 
providing increased assistance through the State forestry 
agencies and Department of Natural Resources to provide 
technical advice and guidance on preparing and developing 
CWPPs.
    Then not just developing the documents themselves, but 
knowing that you have to sustain the partnerships that actually 
implement them. In California we have Fire Safe Councils around 
the country. They are standing, sort of, wildfire coordinating 
groups in communities that then, sort of, hold that plan and 
implement it over time. And they need a coordinator. They need 
a little bit of money every year to just sustain and stay 
working in the same direction.
    I think those investments will pay dividends. I know 
there's recognition that it's going to take more money than 
we're spending right now both money going to local level and 
money, I think, going to the states to be those technical 
assistance providers to help communities build their capacity.
    Senator Cantwell. But this is the ounce of prevention, is 
it not, that Senator Barrasso was mentioning?
    Mr. Goulette. Yes.
    Senator Cantwell. Commissioner Berndt, do we actually have 
Kittitas County results from some of these fire wise programs 
of where areas have been treated verses areas that have not 
been treated?
    Mr. Berndt. Fortunately ours have not really been tested 
but it could happen at any moment.
    I do have a history of one that we prepared that was 
impacted by fire down in the Blue Mountains a week or two ago. 
It was a shaded fuel break that we put on when I was doing my 
old job that we put to protect the city of Walla Walla's 
watershed because it is an untreated, unfiltered water. We 
built a shaded fuel break that was not totally successful, I 
was told, by my agency. I called and asked. And they said, no, 
it really needed to be wider. It needed to be thinned out more, 
but it was easy to refresh, and we prepared that to utilize as 
a portion of the fire line.
    So they do work, but unfortunately we do very narrow bands 
of 200 or 250 feet when we need to and I agree with, I think 
somebody said, a quarter mile. As an Incident Commander what a 
difference that would make to have that on the landscape to 
know that you could buffer and alter the fire behavior as it 
comes in.
    Senator Barrasso. We will go back and forth with questions.
    Dr. Medler, you started with a comparison of how do we, 
kind of, wrap our heads around how big of an area this is 
involved? The U.S. Forest Service had a report a couple years 
ago. They are talking about over 65 million acres of National 
Forest system lands that are high or very high risk of 
catastrophic wildfires. That is an area larger than the State 
of Washington. It is an area larger than the State of Wyoming.
    The Forest Service also states specifically there are over 
12 million acres in need of mechanical treatment, such as 
thinning. So at our current pace of mechanically treating 
roughly about 200,000 acres a year, they say up to 12 and a 
half million acres, it is going to take over 60 years just to 
treat the acres needing treatment now.
    So with these numbers in mind, do each of you agree that we 
must increase the pace of treatment using both prescribed fire, 
mechanical methods and other things to reduce the severity and 
the size of wildfires?
    Dr. Medler. Well, you're absolutely right. The scale of the 
problem and the scales of some of the solutions that are 
proposed are misaligned. I don't, in any way, question the 
validity of many of the solutions, mechanical thinning, 
prescribed fire, enhanced regions around our communities are 
all the kinds of things that can make the biggest difference.
    I think the key point I was trying to make is a lot of 
these Forest Service lands and other Federal and private lands 
that have fuel issues make up such a huge area that, as I said, 
we're not going to cut our way out of it. It's just too darn 
big. So what we really need to address those huge areas is a 
little more freedom to use fire in those larger areas, and 
these folks who are talking about the community protection 
zone, I think, are key to how we're going to have that freedom.
    That doesn't mean we don't need regional and local 
decisionmaking processes. I think one of the key things to 
always recognize here is our fire landscape is very 
complicated. A solution for Flagstaff, Arizona is not the same 
solution for Wenatchee. So we need local input on the kinds of 
things that are the main goals both in the back country and the 
front country.
    I could followup here with another quick comment about a 
recent example about the city of Boulder verses Colorado 
Springs. Several summers ago they experienced nearly 
simultaneous wildland fire. The fires were burning down 
essentially at the same topography, down into major 
metropolitan areas.
    The city of Boulder for decades has had an open space park 
system more than a quarter mile wide, basically providing a 
buffer between the city and these foothills, and they 
experienced very little damage to resources, to homes, to the 
community, and for years they've been able to put prescribed 
fire in those buffer zones. It gave them the kind of resource 
that Gary here thinks is so critical. They had prescribed fire. 
They actually have a Christmas tree harvest in that zone. And 
they use that, what is essentially a park space, as a wildland 
fire buffer.
    At least while Colorado Springs had dozens and dozens, 
literally hundreds, of very expensive homes built up into that 
area, and they've sustained huge losses in those communities.
    If the communities like Boulder, Flagstaff, Colorado 
Springs, are a little bit more or perhaps quite a bit more 
resistant to fire, then we have opportunities on those vast 
scales that you're talking about.
    Senator Barrasso. Would anyone else like to weigh in on 
that?
    Dr. Goldmark. Well I would just make a comment about fire 
wise. In the aftermath of the Carlton Complex fire from last 
year we did an analysis about homes that had a fire wise 
protection plan and had been treated. 80 percent of those homes 
survived the wildfire, so we think it's a very helpful 
treatment to utilize.
    We've also looked at other areas of the landscape that were 
impacted during the Carlton Complex fire or the Tripod fire 
which was nearby, and we see that management activities in 
terms of thinning or harvest cut down the severity of the fire 
and in some cases fire proof those given areas.
    Senator Barrasso. Thanks.
    Mr. Goulette as well as Mr. Berndt, I think, it is the USDA 
Inspector General who has reported over half of all of the 
money the Forest Service spends on fire suppression costs are 
incurred protecting houses, as he talked about on private 
property. Most of that private property is within the WUI, the 
Wildland Urban Interface.
    Mr. Berndt, you talked about some of the ways and actions 
your county has taken to prepare for wildfire. I think you also 
mentioned you have standards but without enforcement. I am just 
looking to see if there are some additional things that we 
ought to be looking at legislatively that may be helpful.
    Mr. Goulette. I think that codes and standards can prove 
very effective. California has a statewide code that then local 
counties can modify and improve on. And some have and do.
    In the State of Washington we have several places that have 
adopted codes and standards. It seems to me, a difficult thing 
to legislate. At the same time a lot of the voluntary actions 
that we can take around home inspection and encouraging 
defensible space are things we can do now very effectively and 
we know they make a difference.
    I tend to lean in that direction from the standpoint of 
prioritizing funding today. At the same time, I think, sort of 
trying to tackle and figure out how to enforce and implement 
codes and standards has great potential to, sort of, cut down 
that WUI development that's happening and potentially improve 
all these renovations that are going to happen over time to all 
these homes that are already built in the Wildland Urban 
Interface. Commissioner Berndt probably knows better than I.
    Senator Barrasso. Commissioner, do you want to add 
anything?
    Mr. Berndt. Defensible space maintained is the key. We sell 
the concept on the incentive basis that when the wildfire 
strikes you probably may not get a fire engine parked in your 
driveway. It's your responsibility to create that space that 
will make your home survivable in the passage of a wildfire 
without other protection. It's a very difficult sell and it 
doesn't go well at homeowner associations, but we try to put a 
pretty strong spin on what the responsibilities are for 
building in that Wildland Urban Interface. The people come for 
a sense of place, and I can take them to so many places where 
that sense of place has been permanently reduced for the next 
50 years. And so we try to work hard.
    One, during the construction and we even put a fire wise 
around three sides of an entire community and convinced them 
that you are very much at peril of your entire community being 
erased on an afternoon. That was kind of our approach.
    Senator Barrasso. Thank you.
    Dr. Zimmerman, I wanted to ask you about these large scale 
wildfires. Dr. Goldmark mentioned, I think, it is no longer the 
exception but the rule. Is what you are seeing over a century 
of aggressive fire suppression and where we are now in terms of 
the load? Do you have thoughts about how we could prevent these 
really large wildfires at this point?
    Dr. Zimmerman. Yes, I've had many, many thoughts about 
that. And you know, it's the Federal agencies and the State 
agencies that go through an aggressive initial attack program 
with a goal suppressing 98 percent of all wildland fire during 
initial attack. So these large fires we deal with are 2 percent 
of all the fires, roughly. There are more one year than another 
year because the total number of fires is greater and we have 
more large fires this year. That's still a very small 
percentage of all the fires. And we need to do things that, you 
know, once those get to be large fires we can't suppress them 
through initial attack techniques. They can only corral them. 
We have to wait for moderating weather.
    We have to try to find many, many resource bids that we put 
at risk of exposure to firefighter's equipment depending on the 
conditions. And the risk can vary. Now we have to look at the 
investments that we're making there in terms of firefighter 
risk, equipment risk verses return.
    But there's preparation that can be done ahead of time. I 
know a lot of people have talked so far today about fire watch 
treatments, community wildfire protection plans, field 
treatments, mitigation rangers, fuel reductions or even the 
Wildland Urban Interface codes. We have code enforcements and 
inflammable material, construction of new houses and things 
like that. All those things together are very important to us 
and will help us to prevent the occurrence of large numbers of 
large fires in the future.
    Treating the fuels and changing this environment, we have a 
history of 100 years of living with fire in this nation where 
living with fire has been to exclude fire. We haven't been able 
to do that. I mean, we still have fire very present but we've 
allowed fuels to buildup.
    We've altered the fuel complexes, the vegetation complexes, 
and we're seeing the results of that during this century. We 
ought to go back and mollify those fuels and get things back to 
a more manageable situation.
    So it's a combination of factors that are needed because 
there's a variety of preplanning tools needed. There's a lot of 
mitigation tactics needed, and then even some of the ways we 
fight fires are needed, all simultaneously.
    Senator Barrasso. Thank you.
    Senator Cantwell?
    Senator Cantwell. I want to followup on this notion of 
preparedness in general for communities.
    One thing that we have not talked a lot about is this issue 
of communication, but obviously we have a pretty good network 
with the firefighters. I visited the communication command 
center in Colville and saw how that operates, but obviously we 
are seeing communities all across the state have to deal with 
this challenge of communication as the broadband networks have 
burnt up.
    Is this just because we have seen so much more development 
in the Wildland Urban Interface or has this always been our 
problem and now we know more about it ? And what do we need to 
do to develop the communication response system? Is it about 
redundancy up front or is it about just making sure that we 
have the ability to get mobile units into communities who are 
planning responses?
    Mr. Berndt. So I chair the local 911 board and our constant 
communication amongst ourselves is trying to figure out the 
interoperability amongst fire agencies and responders. When we 
talk about a surge there will be people arriving from all over 
the entire United States that need to be able to communicate. 
We really struggle with how do we get an interoperability that 
is understandable, implementable and widespread when we need it 
quickly. It's a very expensive thing.
    The same is true with communicating with our citizens when 
the power goes down. We're a little bit fortunate in that we 
have I-90, Interstate 90, that has quite an expansive cellular 
network that's mostly run by propane as are the repeaters. But 
the interoperability is huge and I don't pretend to know it. I 
listen to it, and I haven't heard where somebody said we know 
how to solve it.
    Senator Cantwell. I do not know if anybody else or 
Commissioner Goldmark has a comment on that, but one thing we 
did hear as we were going around the state is we should have a 
number, just like on I-90, that you can call.
    Mr. Berndt. Yes.
    Senator Cantwell. That gives you the latest information.
    Mr. Berndt. Yes.
    Senator Cantwell. When other capacity is down.
    Mr. Berndt. Yes, I agree.
    Dr. Goldmark. So, I would just comment I agree that, 
particularly at the community level, I mean when evacuation 
notices are going out and there is no way for the citizens to 
actually interface with that information. There are a lot of 
anxious people out there, so having a really robust and durable 
communications system within the community so it can understand 
the fire condition and their own safety aspects, I think, is a 
really good point.
    Mr. Goulette. Yes, I want to add I think there's more we 
can do on evacuation planning ahead of time that could really 
help even in the absence of communication infrastructure people 
make better decisions when a fire does get out of hand, and 
they're either faced with the decision to evacuate or stay in 
some instances where it helps them to make the safest decisions 
possible because they've talked with their neighbors. They've 
talked with their family. They understand the intent of the 
local emergency responders and the fire department. I think 
that can become a bigger component of Community Wildfire 
Protection Planning and was maybe lacking in the very first 
round of CWPPs.
    So I think we have an opportunity as we're updating and 
increasing the number of plans to really do a better job of 
evacuation planning.
    Senator Cantwell. We just see it in some of these 
communities because they have very narrow in and outs. [Cell 
phone ringing.]
    Senator Cantwell. I think this is to say how important 
communication is. [Laughter.]
    Senator Cantwell. It's a reminder. It's a moment.
    The Republic or Twisp, Winthrop Valley or even now as we 
look at what has happened in Pateros, we have very few routes 
in and out of these communities. Here we are trying to plan for 
some of the evacuations from Omak. You know, how are we going 
to get people even out of there given what the whole 
surrounding area was undertaking?
    So it seems to me like in that moment it is really critical 
to have these communication networks that say this is where we 
can go, this is how we can get there.
    I saw a woman, who just happened to be in Pullman on 
Saturday. She said, ``Yes, I just went and got my mother from 
Omak.'' And I said, `Well how did you get there?'' And you 
know, she told me a very elaborate route she had to use just so 
that she could go and get her mother.
    We have other Washingtonians who do want to help their 
families and help their neighbors and want to know what the 
best way to do that is. It just seems to me that this is 
probably not unique necessarily to firefighting in the context 
of natural disasters. I loved what you said, Commissioner 
Goldmark, about this is not just another agency managing a 
problem. It becomes a disaster, and our response has to be a 
robust response to that natural disaster.
    To me, a more robust communication system that helps both 
in the communication about the fire, and in the response is 
something that we need to look at. Obviously part of the 
question is what is that delivery system that is less 
vulnerable to the fire itself so that you can count on it, so 
that you know that it will be there?
    I don't know what the number is. Somebody told me $2 
million worth of wire owned by the Douglas County PUD burned 
up. So it makes it very, very challenging but we are going to 
have to figure out how to have this communication system if we 
want to have a good response for our citizens. I do not know if 
anybody has any responses? I guess we will look at this from a 
technology perspective. I don't know, Dr. Medler and Dr. 
Zimmerman, if your organizations have looked at that?
    Dr. Zimmerman. No, we haven't. We're aware of it, but we 
haven't looked at it.
    Senator Cantwell. OK.
    Dr. Medler. One thing I will say is that community 
protection and community resilience have a few other subtleties 
and the kinds of questions you're asking about communication 
and infrastructure and information flow are probably best 
viewed not just or probably best viewed not just in an 
emergency response context but in a resilience context.
    One way to think about resilience is how long will it take 
and how much will it cost to get us back to something like 
normal? I think that's one of the things that some of these 
communities are facing when we prepare for these fires. And we 
decide which sort of investments to make to get them to the 
point where we'll all be able to breathe a sigh of relief and 
say, whew, that the fire is over. OK everybody, go back to what 
you were doing.
    That's when a lot of these communities realize their 
infrastructure, their water systems, particularly, but many of 
these communication infrastructures are damaged. To think about 
resilience rather than resistance in those communication 
structures, I think, is not only critical and wise, but also 
it's worth considering the model of Washington.
    These things don't come one at a time, once and then stop. 
We have a fire again the very next year nearby and so 
infrastructure that we could have put money into for 
communication around these fires needs to be resilient to be 
able to be used again, probably the very next season and in 
Twisp again, 2 years in a row.
    Senator Cantwell. Well, that is why I definitely do not 
want to see what we saw last year which was hesitancy because 
we had to wait for the FEMA declaration. No community should 
have to wait for that declaration to get the emergency 
communication system deployed. We need to get something that is 
there and useable so that the local governments and law 
enforcement and others can communicate to the citizens about 
these evacuation levels. Obviously they ramped up very quickly 
this time, but all the more reason why we need to have the 
communication.
    Thank you, Senator Barrasso.
    Senator Barrasso. I have a couple more questions.
    Mr. Berndt, in your testimony you spoke about burned lands 
washing away and the fire impacts on watersheds. I was 
wondering in your view what additional steps need to be taken 
to protect watersheds to create group resilient forests?
    Mr. Berndt. So speaking somewhat from history, the Federal 
lands that are burning now will undergo a process known as the 
Burned Area Emergency Rehab Process. But a lot of the private 
lands are often left to their own devices to work with either 
local conservation districts or the NRCS because the State of 
Washington doesn't allow for any repair. I hope I'm still 
right, can assure that is not suppression related.
    So the damage to the land is the landowner's 
responsibility. It's a rare event for the landowner and they 
need the resources to be able to do the things they need to do 
very quickly, like in the next 90 days, before winter sets in 
to make their lands stable so we don't ruin our watersheds and 
water supplies for lack of action.
    Senator Barrasso. Dr. Medler, there have been a number of 
reports that the Forest Service spends an incredible amount of 
taxpayer dollars, risks the lives of employees by conducting 
fire operations that it knows are actually not going to have 
much impact. I think you eluded to that a bit. The LA Times won 
a Pulitzer Prize, because they had a whole series of articles a 
number of years back about, kind of, the blank check approach 
to suppression spending.
    I want to ask you about what kind of spending controls 
Congress ought to consider putting in place to get a handle on 
fire suppression costs or to ensure that we are not exposing 
our firefighters to unnecessary risks?
    Dr. Medler. Well, that's a great question and a very big 
one, and I think there are a couple other folks here that have 
some expertise on that.
    I have great respect for how the Forest Service is going 
about trying to provide for the safety of the folks working on 
the fire lines. I would be remiss if I were to stand here and 
say we're not doing enough to protect the lives there. And some 
of us not sitting still.
    However, I do think I will reiterate that there is this 
bifurcation problem that we have large, catastrophic fires 
burning big areas in back country, some wilderness and lots and 
private and state and county lands as well. Perhaps to go back 
to the fire borrowing problem, one way I think about it is 
perhaps more of a separation not in suppression verses 
preparation but as more of a front country, back country 
process in the planning and to make sure that we have the 
resources necessary to do what we need to do in the front 
country which is where it's expensive.
    I would argue that one of the big problems we're having 
with expenditures is we're using essentially a WUI model even 
in the back country. A fire is 22 miles from a community. We'll 
hit it hard. We'll hit it with tankers. We'll hit it with hand 
crews as if it's a mile away from a community, and we have to 
because essentially it is. It can make that run in two more 
days and get to that community. I know of prescribed fires 
around Los Alamos that made exactly that kind of run in a day. 
They were trying to burn about 1,000 acres, and it made it 
many, many miles in a short time right into the city.
    So as long as all of our communities, as long as there is 
some very vulnerable, we're going to be spending huge amounts 
of money in the back country on fires that before those 
communities were built we would have simply allowed those fires 
to run their course in a much, much less expensive and, I will 
argue, much safer way.
    Senator Barrasso. I have one other question I wanted to ask 
Dr. Goldmark. The Forest Service put out a report a couple of 
years ago recognizing the need for a strong forest industry to 
help accomplish forest restoration work. I want to ask you why 
do you think a vibrant forest products industry makes 
restoration projects more cost efficient? I know mill owners 
say a primary, they have some barriers in trying to get to do 
some work in forests in terms of regulations. But is there a 
need, in your opinion, to have a healthy industry to help with 
some of this work?
    Dr. Goldmark. There is, and it's a critical issue in 
Eastern Washington today, particularly in Central Washington. 
The infrastructure is basically gone. Remaining is the Yakima 
Nation which has a mill there and then there are mills located 
in Colville.
    But in the intervening space in Kittitas County, as 
Commissioner Berndt knows very well, there's no infrastructure 
there. If you want to do your forest health treatments and you 
want to pay for those through the removal of small diameter 
material that needs to come out and reduce the fuel loading, 
there's no economic manner of doing that. That's why many of 
these forest health treatments cost money, and it's also why 
some of us have been working around renewable fuels that can be 
generated from biomass.
    So there are a number of different approaches we're using, 
but mill infrastructure is a vital part of forest restoration 
and resilience.
    Senator Barrasso. Commissioner Berndt, is there anything 
you want to add?
    Mr. Berndt. Absolutely. When the private timber companies 
decided at some point many years ago that the forests of 
Eastern Washington were not providing the return that they 
would expect, they began to dispose of their lands and that 
made operating mills basically no longer viable.
    I've talked many times to the Forest Service folks, is 
there any way we can work something for our economy to rebuild 
and re-get, reestablish, some infrastructures in our community. 
But there's no ability for the Forest Service to make long term 
commitments that those who would be interested in developing 
the infrastructure, particularly a mill, would say we can't 
invest our money on short term, very expensive in these days, 
to open a mill or to do the biomass.
    We've made several failing attempts, and it's critical that 
the working circle for these operations needs to be probably 
less than 50, 75 miles. But if you harvest timber in Kittitas 
County now it either goes to the coast or it goes into Central 
Oregon or it goes to the Yakima mill. It's just not profitable 
for that to happen on any kind of scale.
    Senator Barrasso. Thank you very much.
    Senator Cantwell, additional questions?
    Senator Cantwell. I just want to ask the witnesses. 
Obviously this is a big priority for the State of Washington, 
getting a new approach here, making sure we do preparation and 
preparedness, improving our system.
    It is a priority for my colleague from Wyoming. I don't 
think he would be here today if it wasn't. We have panelists 
from other parts of the country. Why is getting a new fire 
response plan a national priority?
    Dr. Goldmark. If I might, I would offer that from a 50,000 
foot level, if you will, if we are experiencing drought 
conditions here in the State of Washington. Higher 
temperatures, I think we've set record high temperatures for 
the past two or three months. We've had very low precipitation, 
and the result of this, in part, are these mega fires that are 
occurring today. It's drawing resources in terms of staff and 
equipment from all across the nation. It's drawing financial 
resources of a major dimension here into the state to fight 
these fires.
    I would point out that the Okanogan Complex fire in 2015 as 
well as the Carlton Complex fire in 2014 were not only the 
state's worst wildfires for those years, but indeed the top 
priority at the national level.
    So perhaps Washington State is most impacted by a warming 
and drier climate. In doing so we're bearing the brunt of a 
very vicious wildfire season. It is a national issue.
    Mr. Goulette. I would add, the American taxpayer has clear 
interest in public lands across the country. The vast majority 
of them are in the West. The vast majority of those are at 
risk.
    Climate change is pushing those forest's ecosystems and 
woodlands and grasslands to new conditions given the current 
fire context. If we don't take action it will only cost the 
American taxpayer more, and we will only have worse climate 
outcomes in terms of carbon and we will lose those species that 
we're trying to protect. It's clearly a national problem and a 
national priority.
    Dr. Zimmerman. Yes, I would also say that I believe this is 
a national issue. While the magnitude of it may be greater and 
more recognized in the Western United States, we now have a 
year round fire season within the United States.
    We have fires in the Southeastern part of the country 
throughout most of the year, starting early in the year. Texas, 
Oklahoma and some other South Central areas are having fires on 
Christmas Day and New Year's Eve and New Year's Day. It's a 
year round problem. It's only continuing to grow. The North 
Central part of the country also is having larger fires. And 
you might look at the Western United States, that's where we 
hear about during the summertime through the media. You'll see 
that since the year 2000 that many of the Western States have 
experienced their largest fire or second or third largest fire 
ever on record in the last 15 years.
    So look, fires are getting larger. The seasons are getting 
longer. The extent of the area burning is extending across the 
country.
    Dr. Medler. I'd like to chime in also that these fires are 
burning on all types of landscapes and jurisdictions. But fires 
in our Federal lands, going back to Yellowstone and even 
decades before that, are of tremendous interest to the public. 
A critical media opportunity occurs at a lot of these fires to 
try to educate the people as to the needs to do what I would 
concur with Senator Barrasso, get that ounce of prevention out 
there.
    I don't mean to be glum about this, but frankly I don't 
think we've seen a bad fire season yet. My reading of the cards 
is we've dodged a couple bullets over the last eight, ten 
years, and it could get quite a bit worse. And so, prevention 
is key at this point before we do have a large fire with tens 
of thousands of homes in San Diego or someplace like that. I 
quite honestly think this should a key priority at the Federal 
level.
    And Tom's absolutely right, it's not just the Western 
United States. We have problems in Florida and the Southeast 
and in many parts of the country where we could have fires 
behaving in new and unexpected ways which is what we are seeing 
now.
    If that happens at a broader scale near some of our larger 
communities we have some serious problems, and I think we're at 
a point where as you have both alluded to, we need a new 
paradigm. We need a new way to think about fires, and we need a 
way to effectively do that for, not just our small communities 
in the back country, but for our Los Angeles and our San Diegos 
just as much.
    Mr. Berndt. The national forests in this country are a 
treasure. They're being eroded at a fairly rapid rate through 
catastrophic fire.
    To me, that's a national priority, to protect those forests 
because I have to tell you I grew up with my father working at 
the United States Forest Service. I treasure the national 
forests of our country. And to say we see a trend, that Dr. 
Medler talks about, we may not have seen a bad season.
    We have a chance to interrupt that cycle and do some things 
that continue to keep the national forests, the treasure that 
I've always seen them to be and the economic engine that 
drives, certainly, my county, certainly Washington State. I 
can't speak for the entire West. It would go totally against me 
to say this is not a national priority.
    Thank you.
    Senator Barrasso. Anything else, Senator Cantwell?
    I just want to thank all of you for being here today, for 
your very, very helpful testimony.
    Other members of the Committee may actually submit 
questions to you. Those who were not able to be with us today, 
and we would ask that you answer in writing.
    The hearing record will remain open for 2 weeks. I want to 
thank all of you for your time and your testimony. I especially 
want to thank our hosts here at this incredible institute of 
higher education. I also want to thank Senator Cantwell for her 
dedication, her work and her willingness to address these 
difficult issues in challenging times.
    Thank you.
    This hearing is adjourned.
    [Whereupon, at 1:32 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------     
                              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                              



</pre></body></html>
